Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Delaware State Police ConsortiumDover, Delaware

GR-70-03-002


November 2002
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services (COPS) to the Delaware State Police Consortium (the Consortium), Dover, Delaware.  The purpose of the grant is to enhance community policing.  The Consortium was awarded a total of $1,770,445 to redeploy 110 full-time equivalents.
We reviewed the Consortium's compliance with four essential grant conditions:  source of local matching funds, reimbursement requests, officer redeployment, and community policing activities.  We found the Consortium to be in compliance with all of grant conditions.
The results of the audit are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.